                         UNITED STATES DEPARTMENT OF EDUCATION
                                        OFFICE OF THE INSPECTOR GENERAL




March 30, 2004


INSPECTION MEMORANDUM

To:               Phil Maestri
                  Director, Management Improvement Team
                  Office of Deputy Secretary

From:             Cathy H. Lewis
                  Assistant Inspector General
                  Evaluation, Inspection and Management Services

Subject:          Review of MIT Action Item Number 218 (ED/OIG I13E0009)

This memorandum provides the results of our inspection of one Action Plan item from
the Department of Education’s (Department’s) Blueprint for Management Excellence.
The EIMS group is examining several Action Plan items related to Human Capital. Our
objective is two-fold: 1) were the items completed as described; and, 2) as completed,
does the action taken help the Department towards its stated Blueprint objective. In this
report, we examined item Number 218, concerning the communication to all employees
of the Department’s values, the desired outcomes of One-ED, and the desired behaviors
of managers and employees.

Background:

With the issuance of the One-ED Report, the Department included a section on the One-
ED Communication Plan. The purpose of the plan was to “ensure alignment at the
organizational and individual levels” within the Department allowing for support and
implementation of One-ED. In addition, the plan would communicate the Department’s
new values, the desired outcomes from the implementation of One-ED, and what would
be expected of employees in order to achieve the Department’s strategic goals. The plan
suggested a two-pronged approach. Phase I, Awareness and Understanding, would use
briefings, training, news, information, incentives, and promotional material to give
employees a better foundation in the Department’s new direction. Phase II, Building a
Foundation for Implementation, would build on the previous phase and employ a more
sustained effort to align major strategies with daily work and performance.

The action required by item number 218 was to:


                             400 MARYLAND AVE., SW., WASHINGTON, DC 20202-1510
                                                www.ed.gov

      Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
       “Communicate to all employees the Department’s values, the desired
       outcomes of One-ED, including a Culture of Accountability and linking
       performance expectations/awards to the Strategic Plan; the desired
       behaviors of managers and employees, including recognition of training
       recruitment and performance management as ‘investment activities,’ not
       activities that interrupt so-called ‘real work.’”

The comments field on this item states, “Completed 3/31/03 – SES monthly meetings;
Assistant Secretary retreat 2/03; periodic EMT meetings include one-ED updates and
discussion of strategic plan and action steps. MIT has agendas on file.”

Objective 1: Did OM complete the actions needed to complete this item?

The Office of Management (OM) developed a database to track all of the different
actions and milestones needed to implement its Communications Plan. Among some of
the items listed are the following: brief the Executive Management Team (EMT) on One-
ED progress; conduct Secretary’s All Staff Meeting to communicate the One-ED vision,
including its core values and desired outcomes; develop the most effective and efficient
ways to increase the awareness of One-ED to ED employees; and develop criteria and
guidelines for a PRIDE Award (One-ED Core Values-Plaque, Certificate, etc).

In addition to the creation and implementation of the database, OM has held briefings
about One-ED for the Department’s employees, expanded the briefing of new employees
during orientation, published information on ED Notebook, ConnectED and InsideED,
and distributed promotional material. While the actions did not address all of the items
identified as implementation milestones (such as the PRIDE Award), these actions
completed the majority of the action items listed in the original Communications Plan
and sufficiently addressed most of the issues addressed in the Action Item.

Throughout the One-ED implementation process, OM has sent messages to managers and
employees conveying the Department’s values and the behaviors expected of all
employees. For example, in addition to frequent updates that have appeared on
ConnectED, the Department established a Culture of Accountability Employee team to
suggest recommendations on leadership, skill gaps, trainings, communication, and other
issues. Its report issued in September of 2002 addresses where each of these
recommendations are in its process. OM made this report available to all employees via
ConnectED at the same time.

On March 31, 2003, once the Management Improvement Team (MIT) felt it was clear
that there was a system in place to complete what is always an ongoing effort, it marked
this item as “completed.”

The above actions taken completed this Action Item.




                                            2
Objective 2: Did the actions completed meet the objective “To improve the strategic
management of the Department’s human capital?”

While a communication plan was developed, as required by action item 218, the
Department has not formally assessed the effectiveness of its plan. This is an important
step in ensuring that the actions taken help support the underlying Blueprint objective.

According to OM, it gathered some informal feedback on the survey and after listening to
this informal feedback, decided that the original Communications Plan was not meeting
the Department’s need. OM consulted the Public Sector Council and Booz Allen
Hamilton in an effort to tailor a new, more effective Communications Plan. Currently,
OM has completed a new plan that focuses more on the Culture of Accountability and its
effect on staff. However, this plan does not differ much from the original
communications plan and still contains the traditional top-down approach to
communication, with information trickling down from upper management. OM plans to
implement this plan shortly.

As noted by the Department, communication is an ongoing effort and should continually
be revisited and assessed for its effectiveness. OM’s initiative to redesign the
communication plan can be seen as a progressive step, however, only if it is well
informed by employee feedback.

Departmental Response

We provided OM with a draft report. We have summarized OM's comments below and
included them in their entirety as an attachment.

MIT Comments
The MIT agrees that OM should continue to assess the communications plan. According
to the MIT, OM has taken some initial steps to enhance the communication plan,
including seeking additional resource help, trying to change the top-down approach, and
requesting input and feedback from employees. OM does not believe this action needs a
separate corrective action plan.

OIG Response
OM’s efforts should continue in order to make the communications plan as effective as
possible. In addition, it is important that OM proactively acquire formal feedback from
Department employees; however, given the actions undertaken by OM, we have
withdrawn our recommendation for a separate corrective action plan and consider this
report closed.




                                            3
                                   February 13, 2004


To:        Cathy H. Lewis
           Assistant Inspector General
           Evaluation, Inspection and Management Services

From:      Phillip Maestri, Director
           Management Improvement Team

Subject:   Draft Inspection Memorandum (1/6/04)
           Review of MIT Action Item Number 218 (ED/OIG I13E0009)
           “Communicate to all employees the Department’s values… the desired
           outcomes of One-ED… and the desired behavior of managers and employees”

Thank you for the opportunity to review and comment on a draft version of this
inspection memorandum.

Comments on Background and Findings

In response to your draft memo, the MIT reviewed the documentation on the One-ED
communication plan. Consistent with the OIG findings, we found that the action was
designated “completed” on March 31, 2003, based on the briefings and other information
dissemination completed. The MIT also reviewed the EMT agendas for evidence that
OM continues to evaluate the effectiveness of the One-ED communication strategy. As
the draft memo notes, OM has completed a new plan, which was presented for review
and comment by the EMT on October 28, 2003. That presentation reflected thoughtful
consideration of the impact of prior communications and intention for continued
assessment and improvement of the strategy.

The Office of Management provides the additional following details about the One-ED
communication strategy:

        As indicated by the Inspection Memorandum, the Office of Management (OM)
        developed and implemented a communication plan that involved numerous
        activities, including: briefings for current and new staff on One-ED; publication
        of articles in the Department’s three primary internal communication vehicles;
        and multiple messages to managers and employees about the Department’s values
        and the behaviors expected of all employees, especially those related to the
        Department’s performance appraisal and awards systems. The responsibility and
        use of various communication vehicles has, in effect, become institutionalized,
        with lead responsibility resting in Performance and Process Improvement
        Services, and oversight being provided by the Assistant Secretary for
        Management and the One-ED Steering Committee, as appropriate. When the
        action was “completed,” the MIT and OM agreed that work in the area of




                                            4
       communications would continue because it is a vital component of creating a
       “culture of accountability” in the Department.

OM is committed to an approach of “continuous improvement.” We have learned much
from our first year’s efforts and have factored the lessons learned into a revised approach.
For example, we have learned that to be effective, we must use a variety of
communication vehicles and we must constantly seek feedback from those with whom
we are trying to communicate to ensure that our message and meaning are clear. In
revising our communications approach after our initial plan was implemented, we sought
advice from those who are experts on communications and change management. The
Inspection Memorandum cites our efforts to solicit advice from external experts at Booz
Allen Hamilton and the Private Sector Council. In addition, since speaking with OIG
about researching ways to make our communications efforts more effective, we have
performed additional research and further improved our approach. Specifically, we
reached out to our internal experts within the Department and have established a
partnership with the Office of Public Affairs, the Secretary’s Chief of Staff and the
Department’s Internal Communications Team Leader. Together we are focusing on
improving communications and implementing a strategy focused on the following
objectives:

       •   Clarify the vision for a “culture of accountability,”
       •   Highlight how reorganizations, re-engineering, competitive sourcing and other
           management initiatives support the culture of accountability,
       •   Indicate how changes necessary to create a culture of accountability will
           affect employees, and if needed,
       •   Let employees know how they will be supported through the various changes
           that they and the Department will undergo.

The result of the partnership has been to enrich the communication strategy in a number
of ways, making it less of a top-down approach. Planned actions include:

       •   Conferring with the Chief of Staff and Assistant Secretary in each of the
           Principal Offices (PO) to plan an all-staff meeting where employees can
           discuss what is meant by a culture of accountability and actions planned or
           taken to strengthen such a culture within each PO.
       •   Scheduling periodic roundtable discussions, to which all staff are invited, to
           generate discussion around the Culture of Accountability. Ideas for roundtable
           topics and “experts” are being solicited from multiple sources.
       •   Publishing stories in ED Notebook and/or Inside ED that highlight success
           stories told by employee teams that have experienced change in a positive way
           and have helped improve accountability within their program area.

The Inspection Memorandum includes a recommendation that OM “assess the
effectiveness of the communication plan with provision for formal, periodic employee
input and make adjustments to the plan accordingly.” We plan to seek feedback to
evaluate our efforts using the following approaches:


                                             5
       •   Doing just-in-time surveys at the PO-wide meetings and roundtable sessions.
       •   Seeking feedback in scheduled sessions with the EMT, SES Forum, Internal
           Communication Team, and Chiefs of Staff by requesting time of the agenda to
           get their perceptions of the effectiveness of the communication strategies.

Response to recommendations

The MIT agrees that OM should continue to assess the effectiveness of the One-ED
communication plan. Given the work to date and OM’s current plans, we do not see a need for a
separate corrective action plan.




                                          6
7
